<html>
<title> - RUSSIA'S STRATEGIC OBJECTIVES IN THE MIDDLE EAST AND NORTH AFRICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









   RUSSIA'S STRATEGIC OBJECTIVES IN THE MIDDLE EAST AND NORTH AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2017

                               __________

                           Serial No. 115-41

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-844PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania
































                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Vladimir Kara-Murza, vice chairman, Open Russia..............     9
Ms. Anna Borshchevskaya, Ira Weiner fellow, The Washington 
  Institute for Near East Policy.................................    13
Mr. Brian Katulis, senior fellow, Center for American Progress...    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Vladimir Kara-Murza: Prepared statement......................    11
Ms. Anna Borshchevskaya: Prepared statement......................    15
Mr. Brian Katulis: Prepared statement............................    25

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47

 
   RUSSIA'S STRATEGIC OBJECTIVES IN THE MIDDLE EAST AND NORTH AFRICA

                              ----------                              


                        THURSDAY, JUNE 15, 2017

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
other members seeking recognition for 1 minute. We will then 
hear from our esteemed panel, and the witnesses' prepared 
statements will be made a part of the record. Members may have 
5 days to insert statements and questions for the record, 
subject to the length limitation in the rules.
    The chair now recognizes herself for 5 minutes.
    For far too long, the United States has acted timidly in 
the face of increased Russian aggression, unwilling to confront 
Putin for fear of provoking a confrontation, even though Putin, 
like other tyrants, only responds to a position of strength. 
And it isn't just the executive branch: Congress has played its 
role too.
    For years, administrations have been offering concessions 
to Russia, and Congress has allowed this to happen. The Bush 
administration presented a civilian nuclear cooperation 
agreement, a 123 agreement to Congress, despite concerns Russia 
was then providing Iran with nuclear technology and providing 
Syria with advanced conventional weapons in violation of the 
Iran, North Korea, and Syria Nonproliferation Act. In fact, the 
Bush administration had sanctioned state-owned Russian entities 
for Iran-related violations. I led the effort then to block 
that agreement. President Bush withdrew the proposed nuclear 
accord, but only after Russia invaded Georgia.
    That didn't stop the Obama administration from falling into 
the same trap, officially submitting to the U.S.-Russia Nuclear 
Cooperation Agreement to Congress in 2010, despite overwhelming 
evidence of Russian involvement in Iran's nuclear and 
conventional weapons program and congressional efforts to 
strengthen sanctions against Iran.
    Russia repeatedly acted as interference for Iran at the 
U.N., protecting it from scrutiny and increased sanctions, all 
the while itself violating U.S. sanctions against the world's 
foremost state sponsor of terrorism. Yet we fail to hold Russia 
accountable. In fact, as part of the Obama administration's 
reset, the U.S. lifted several sanctions against Russia, 
including sanctions against the arms exporter Rosoboronexport, 
which admitted it was shipping advanced missile defense systems 
to Syria.
    In 2010, the administration agreed to sign over the control 
of Uranium One, the U.S. uranium processing facility to the 
Russian Government. Again, despite overwhelming national 
security concerns. As then ranking member of this committee, I 
spearheaded a letter alongside the ranking members of the House 
Financial Services, Armed Services, and Homeland Security 
Committees urging the Treasury Secretary to oppose this move.
    Another consequence of ignoring Russia's behavior was the 
decision to overturn the Jackson-Vanik amendment, paving the 
way for Russia to join the WTO, World Trade Organization, and 
granting Putin permanent normal trade relations. This was part 
of the deal with the Devil in order to get the Magnitsky Act 
signed into law. And though we managed to get that signed into 
law, an important bill, the previous administration failed to 
use its authorities to sanction Russia's worst human rights 
violators.
    So where are we now? We have established a long history of 
failing to use the tools the United States has available to it 
in order to hold Putin and the Russian regime accountable.
    Putin's support for Assad has guaranteed that the conflict 
will continue and that tens of thousands more will die. His 
alliance with Iran has given Tehran the tools it needs to one 
day become a nuclear power with strong conventional arms, 
including advanced missile defense capabilities. He is 
bolstering General Haftar in Libya, making it almost certain 
that no progress toward reconciliation will be made there in 
the near future. Reports indicate that Russia may be deploying 
troops or possibly wanting to set up a base at the border of 
Libya and Egypt. Putin is ensuring that Russia ties itself to 
the energy and military sectors of many countries in the 
region, giving him leverage and influence in countries that 
have viewed us with mistrust since the Arab Spring and the Iran 
nuclear deal.
    Russia is not our ally, not in Syria, not in Iran, not on 
human rights issues. We should not be afraid to push Putin 
back. He is a strong man, and tyrants like him only respond to 
strength, not just perceived strength but actual strength. 
Russia is fragile, and this show of force is just that, a show 
by Putin. It is time for the U.S. to reclaim our leadership 
role on the global stage and, particularly, in the Middle East 
and with respect to Russia.
    Yesterday, the Senate passed an amendment to the Iran 
sanctions bill that included Russia sanctions. And while I 
support efforts to hold Russia accountable for its cyber 
activities and its activities related to Crimea, I hope that 
this will be only the first step toward a more holistic 
approach to holding Russia accountable for its activities, 
which threaten U.S. national security interests and global 
peace and security.
    And with that, I am proud to yield to my ranking member, 
Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman. Thank you for 
agreeing to hold today's hearing.
    Russia has been in the news a great deal lately. But what 
has been absent in much of the reporting is a clear analysis of 
what exactly Russia's foreign policy objectives are under 
Putin's rule.
    Today, we have a chance to focus on the Middle East where 
Russia has demonstrated again and again a disregard for human 
rights and for human life. Russia's posture in the Middle East 
would be troubling in any context, but given the bizarre 
relationship between this administration and Russia, it is even 
more pertinent that we as the United States Congress understand 
why ceding our role as the leader in the Middle East to Russia 
runs counter to our own national security interests. And we 
cannot have a full understanding of this administration's 
foreign policy until we know more about this administration's 
ties to Russia.
    Russia's relationship with Iran, its support for the Assad 
regime in Syria, and its willingness to align itself with 
authoritarians shows brazen disregard for international norms 
and the rule of law.
    Are these decisions made solely to counter American 
objectives and form a bulwark against the United States? I 
mean, the Soviet Union was the first country to recognize the 
Islamic Republic of Iran in 1979, and the relationship between 
Iran and Russia has remained close ever since. No nation has 
contributed more to Iran's nuclear programs, sold more weapons 
to Iran, or been more willing to defend Iran's indefensible 
actions in international fora. As Iran has worked to 
destabilize nearly every country in the Middle East, Russia 
seems willing to overlook every Iranian transgression in 
pursuit of its own ambitions.
    In no Middle East country has Russia done more to deserve 
international condemnation than in Syria. Not only has Russia 
propped up Syria's war criminal President with arms and funds, 
but Putin's forces have actively attacked opposition forces 
aligned with the United States, as well as countless civilian 
targets on behalf of the Assad regime. Reports from Aleppo 
indicate that Russia used bunker-busting munitions to attack 
hospitals on a regular basis, reducing to rubble underground-
held facilities that had been out of reach to Syrian forces.
    When Assad ordered chemical attacks on civilian populations 
in April of this year, the planes flew out of a base shared 
with the Russians, and one would be hard-pressed not to 
conclude that the Russians were aware that gas was stored at 
that base. Yet Russia chose not to condemn the attack, which 
violated the very agreement Russia helped negotiate to rid the 
country of chemical weapons, or to apologize for their 
complicity. Instead, they spent days blocking meaningful U.N. 
Security Council resolutions condemning this heinous attack on 
children and babies.
    Russian actions in Syria have lent support to Hezbollah, a 
terrorist organization, and other Iranian-backed militias. 
There are reports that Russia has provided Hezbollah with long-
range tactical missiles, laser-guided rockets, and antitank 
weapons, and on more than one occasion, Russia has provided air 
cover for Iran-backed operations.
    Oddly, the Russian Ambassador to Israel this week went to 
great lengths to explain why Russia doesn't consider Hezbollah 
or Hamas terrorist organizations, stating that they have yet to 
attack Russia or Russian interests. Claiming his involvement in 
Syria is a way to prevent the spread of ISIS terrorism, Putin 
has been willing to cast aside international norms and order to 
ensure his own political future.
    Our President has repeatedly talked about how nice it would 
be if we could fight ISIS together with Russia, except there is 
one problem. Russia has repeatedly attacked the very forces the 
United States has aligned itself with in the fight against 
ISIS, while supporting the action's very regime that we 
consider the largest state sponsor of terrorism.
    I am not sure we need clearer proof that Russia's strategic 
objectives in the region are in clear contravention with our 
own. Is the Kremlin's willingness to align itself with the 
region's worst actors a projection of strength or, rather, a 
reflection of Putin's deep insecurities? We have an 
administration that seems to be willing to give Putin the 
benefit of the doubt and even to drive policy in the region 
without much questioning.
    We must push back against every effort from this President 
and his allies to legitimize Russian behavior, or to draw false 
equivalence between Russian actions and those of the United 
States, as the President did on national television when asked 
on Fox News about Putin being a killer.
    Even as Russia supported brutal dictators and worked to 
undermine American alliances, President Trump has complimented 
Putin, calling him a very strong leader, and benefiting from 
the Russian interference in our elections, suggested 
partnership with the Kremlin, shared the closely held secrets 
of allied intelligence agencies with Russia's top diplomats.
    There is obviously a lot more to discuss. Russian activity 
now spans throughout the region, but I am confident that our 
conversation today will only solidify the fact that the United 
States should not, by any means, let Russia drive policy in the 
critical region in the Middle East.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And I will yield to our members for their opening 
statements. And if I may start with Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chair.
    The previous administration's withdrawal from America's 
traditional leadership role left a power vacuum around the 
globe, one that Putin gladly took advantage of. And 
unfortunately, we are now paying the consequences.
    Putin's engagement in Syria and the Middle East has 
complicated our own strategy for dealing with ISIS and Iran and 
a litany of other major issues in the region. As the U.S. works 
to defeat ruthless terrorist groups, Mr. Putin undermines our 
efforts the entire way by lending support to the Assad regime, 
continuing to test the limits of our allies, and supplying 
weapon systems to Iran.
    It is clear that Putin hopes to restore Russia's economic, 
military, and geopolitical influence around the world by 
capitalizing on the instability in the Middle East. Putin saw 
an opportunity to win over regional leaders by questioning the 
credibility of long-term support from the United States, and to 
some extent, this strategy has worked. However, I also believe 
that there are plenty of tools for this new administration to 
use to bring both stability and balance back to the region, and 
I hope we discuss some of those today.
    And I yield back the balance of my time.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chabot.
    Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman.
    And you and Mr. Chabot and my friends, but to listen to 
both of you, you would never know Donald Trump is in the White 
House. Apparently, everything going on in the Middle East is 
the fault of somebody else whose name is not Donald Trump.
    You would never know that Donald Trump is under 
investigation and his campaign is under investigation because 
of his ties and their ties to Russia. You would never know 
Russia hacked into our election campaign, verified by all of 
our intelligence community. You would never know that Donald 
Trump boasted of firing the FBI director because of the Russia 
thing with the Russian foreign minister. You would never know 
that it was Donald Trump that praised Vladimir Putin as a 
strong man and liked the fact that Putin had said nice things 
about him.
    Could that be enabling behavior? I think so. And I think 
that is the 800-pound gorilla in the room we need to be talking 
about. So you can pretend all you want that it is all Obama's 
fault, but we have got a real-life problem right now in real 
time in this White House, and that is the Donald Trump 
Presidency.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. An enabler.
    Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Four days ago, it was the 30th anniversary 
of President Reagan going to Berlin and saying tear down the 
wall. While having been a senior speech writer for President 
Reagan for 7\1/2\ years, I had a chance to have some input, but 
I did not write that speech. However, I was the one who 
smuggled that speech to President Reagan so that the senior 
staff wouldn't take it out before he had a chance to see it. 
And once he did see it, he withstood enormous pressure to go 
there and speak the truth.
    Ronald Reagan then led this country to peace with the 
Soviet Union. Ronald Reagan believed in peace through strength. 
But let's make it very clear, he believed in peace, and he was 
the one who brought whatever good chance we have to have peace 
in that part of the world. He is the one who made it happen.
    And I will tell you that what we have right now, and I am 
afraid I disagree with all of my colleagues, what we hear now 
is war talk, something that will only lead to war, and it is 
not leading to treating Russia as a power that we need to 
negotiate with, as Reagan did, for the cause of peace.
    I will tell you right now that I called up Condoleezza Rice 
early on when I heard that their economy was in such a free 
fall because the West isolated Russia economically after 
communism fell. They needed to put their scientists to work. 
They made an agreement with Iran. And I said, this is horrible. 
But they have got to do it, because they have to make the 
money. And I said to Condi, I said, look, let's offer them a 
deal. They could make two nuclear power plants in Australia or 
New Zealand, financed by the World Bank, it won't cost a penny, 
and then they won't have this horrible country, Iran, the 
mullah regime, with nuclear weapons 20 years from now. You know 
what she said? She said, that is never going to happen, Dana.
    Well, I will tell you this much, we have people who can't 
get over the Cold War, and they are pushing us toward policies 
of antagonism and repeated unrelenting hostility that will lead 
us to war. Ronald Reagan wanted peace in this world, and so do 
I. This is not the way to a more peaceful world or even a freer 
world.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Lieu of California.
    Mr. Lieu. Thank you, Madam Chair and ranking member, for 
this important hearing on Russian aggression.
    I find it highly disturbing that just yesterday, The Wall 
Street Journal reported our President still questions the 
intelligence community's assessment that Russia engaged in 
massive cyber attacks on the United States last year.
    I am one of four computer science majors in Congress. I 
read the classified report. I have had classified briefings, 
and the President of the United States is simply lying when he 
says another country could have done it. It was Russia. And we 
cannot properly respond to Russia if our own President will not 
accept basic facts. But thank goodness we have Congress. Thank 
goodness the U.S. Senate today overwhelmingly passed increased 
sanctions on Russia. I urge the House of Representatives to do 
the same.
    We had a foreign power commit hostile acts against this 
country. That is not acceptable.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Lieu.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair.
    I guess we are going to be in a debate over the 
administration and not Russia. I will remind everybody, though, 
that President Trump, actually, is the person that enforced the 
red line in Syria and destroyed an airfield as a result of 
these chemical weapons.
    Madam Chair, thank you for doing this.
    And I thank our guests for being here and giving us your 
time.
    I just want to say, in my opening statement, that Russia 
has blood on their hands in Syria as well as many other places.
    In 2015, America mistakenly and tragically bombed a 
hospital in Afghanistan. And as a result, the world rightfully 
called that out, and America made amends; we found ourselves 
accountable. But every day, medical facilities, hospitals, 
places where innocent people live and work and simply try to 
exist in their life are bombed by the Assad regime and backed 
and bombed by the Russian regime. This is pure and despicable 
evil.
    When our country makes a mistake, we hold ourselves 
accountable to it and try to make sure we do it better next 
time. When Russia--they don't make mistakes. They target with 
precision-guided munitions innocent lives. This is not a 
country that we can put an olive branch out to and say, you are 
just like us. You are also a great power. This is a country 
with an economy the size of Italy.
    With that, Madam Chair, I will yield back.
    Ms. Ros-Lehtinen. Very eloquent. Thank you, sir.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen and Ranking 
Member Deutch, for calling this important hearing today.
    And thank you to our distinguished witnesses for offering 
your testimony.
    I want to especially thank you, Mr. Kara-Murza, and say how 
glad I am to see you here healthy and as outspoken as ever, 
drawing light to the Russian Government's activities at home 
and around the world. Your bravery in the face of intimidation 
is an example to us all and a reminder of how lucky we are as 
Americans to be able to speak our mind, question our 
Government, and call out corruption when we see it. We thank 
you for your continuing willingness to speak out.
    There is no doubt that Russia is seeking to expand its 
influence and reach throughout the Middle East. While I hope 
that we can partner with Russia and the horrific conflict in 
Syria, we have to remember that their goals in the region are 
not the same as ours.
    We seem to have an administration that wants to give Russia 
the benefit of the doubt, despite years of evidence that they 
will use this to manipulate events to their benefit. Moreover, 
the overwhelming budget cuts proposed by President Trump will 
leave our foreign policy apparatus decimated and unable to 
respond, namely, to crises and provocations. By ceding our 
leadership role around the world so thoroughly, we will be 
giving Vladimir Putin the opening he has so desperately sought 
to create over the last dozen years to increase his power and 
influence in the Middle East.
    I hope our witnesses can shed some light on Russia's 
intentions in the region and suggest steps that Congress can 
take that will ensure that American interests and national 
security are protected.
    And I will end with one expression of concern, and that is 
that the Senate passed some strong sanctions yesterday. And it 
is already being reported that the White House is reaching out 
in an effort to weaken these sanctions. And I hope that we can 
send a very strong message that the Congress of the United 
States is very united in ensuring that severe sanctions are put 
into place and the Russians are held fully to account.
    And with that, Madam Chairman, I yield back.
    Ms. Ros-Lehtinen. Thank you. Well put. Thank you, Mr. 
Cicilline.
    Mr. Schneider.
    Mr. Schneider. Thank you, Madam Chairman and ranking 
member, for calling this hearing, Russia's Strategic Objectives 
in the Middle East and North Africa.
    The Middle East and North Africa is a region that our 
interests run both deep and broad, as is going to be said, 
having read the advanced testimony, history matters. I don't 
want to take away something you said, but history does matter 
here, and it is important to understand the history of the 
region, the history of different interests in this region. I 
look forward to hearing from the witnesses. Again, thank you 
for being here.
    But I think we also have to look at this in the context of 
a discussion that is taking place in this chamber, that is 
taking place broadly in the country, and that is the 
President's desire to cut our investment in diplomacy and in 
development. It is a three-legged stool, and if we are going to 
promote our interests in this region, we need to continue to 
invest in diplomacy and development as well as defense. And I 
hope the witnesses will be able to touch a bit on that.
    I know we are also going to talk about the sale of weapons 
into the region and how that plays out, and I think that is an 
important issue that we understand.
    And finally, I just want to associate myself with my 
colleague from Rhode Island's remarks about the concern on 
sanctions. It is important that we continue to push back on 
Russia's interests and Russia's efforts to destabilize this 
region. Again, not to take anything away from what the 
witnesses are going to say, but the sense that this is a zero-
sum game, if Russia seeks to win, we have to lose, we can't let 
that be the case. We have to work with our allies to secure our 
interests.
    And with that, I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider.
    Any other members wish to make a statement?
    And now I am pleased to introduce our wonderful set of 
panelists. I am delighted to welcome my friend and a true hero 
of democracy, as Mr. Cicilline referred to him, Mr. Vladimir 
Kara-Murza, who currently serves as the vice chair of Open 
Russia, a Russian pro-democracy movement. He was a long-time 
colleague and adviser to opposition leader Boris Nemtsov. And 
here he is. And this is an actual poster that was used with the 
bullet holes there. Thank you.
    He currently chairs the foundation that bears Nemtsov's 
name. In response to his activism and opposition, Vlad was 
poisoned, not once but twice, by the vile Putin regime.
    Putin's cronies continue cracking down on dissidents. Just 
a few weeks ago, his regime detained a popular opposition 
leader for simply walking down the street and protesting with 
his presence. Many people involved are likely eligible to be 
added to the Magnitsky list. We must show Putin and his 
henchmen that they will not get away with these abuses.
    So thank you, my friend, for continuing to stand up against 
oppression. We all look forward to your testimony, Vladimir.
    And next, we would like to welcome Ms. Anna 
Borshchevskaya--I am so proud, I am going to say it again, 
Borshchevskaya--who serves as the Ira Weiner Fellow at The 
Washington Institute, focusing on Russia's policy toward the 
Middle East. She is also a fellow at the European Foundation 
for Democracy and was previously with the Peterson Institute 
for International Economics and the Atlantic Council.
    We look forward to your testimony. Thank you.
    And finally, we want to re-welcome Mr. Brian Katulis. 
Saying that right, too. Mr. Katulis is a senior fellow at the 
Center for American Progress, where his work focuses on U.S. 
national security strategy and counterterrorism policy. His 
past experience includes work at the National Security Council 
and the U.S. Departments of State and Defense during President 
Bill Clinton's administration.
    Welcome back. We look forward to your testimony.
    And, Mr. Vladimir Kara-Murza, we will begin with you, Vlad. 
Welcome.

   STATEMENT OF MR. VLADIMIR KARA-MURZA, VICE CHAIRMAN, OPEN 
                             RUSSIA

    Mr. Kara-Murza. Madam Chairman, thank you very much for 
your kind introduction. Far too kind, as always. Thank you also 
for your leadership here on this Hill for so many years on 
issues that are so important for so many people. And thank you, 
in particular, for your leadership.
    You mentioned Boris Nemtsov in your opening remarks, and 
thank you for your leadership in sponsoring the House bill, 
H.R. 1863, that would designate the space in front of the 
Russian Embassy here in Washington, DC, as Boris Nemtsov Plaza 
to commemorate him and his memory. This is very important to 
very many people.
    Thank you, also, to the member of the subcommittee, Mr. 
Connolly, for cosponsoring this same piece of legislation.
    Chairman Ros-Lehtinen, Ranking Member Deutch, esteemed 
members of the subcommittee, thank you so much for holding this 
important and timely hearing and for the opportunity to testify 
before you.
    Our subject today is Russia's strategic objectives in the 
Middle East. And I think before we discuss the substance, it is 
important also to clarify the terms. What we are talking about 
today are the objectives of Vladimir Putin's government. For 
many Russians, including myself, it is a very uncomfortable 
equivalence to make between our country and the current regime 
in the Kremlin that has not resulted from democratic elections.
    The Kremlin's involvement in the Middle Eastern affairs 
today is the most active it has been since the heyday of the 
Cold War.
    Just like Hafez al-Assad, with whom Soviet leader Leonid 
Brezhnev professed to be ``fighting shoulder to shoulder,'' was 
Moscow's ally in the 1970s and 1980s, so was his son, Bashar 
al-Assad today. From the start of the internal conflict in 
Syria in 2011, Mr. Putin has been a staunch defender of the 
Assad regime, providing it not only with political support and 
diplomatic cover but also, since 2015, with direct military 
help as the Russian aerospace forces have conducted bombing 
raids against Assad's opponents.
    The Kremlin has blocked eight Syria-related resolutions at 
the U.N. Security Council. Most recently, on April 13 of this 
year, Russia's acting U.N. Ambassador, Vladimir Safronkov--and 
I should add, behaving in a manner more appropriate for a bar 
brawl than for the U.N. Security Council--vetoed a draft 
resolution calling for an international investigation into the 
chemical gas attack in Khan Sheikhoun.
    Vladimir Putin's support for the Syrian dictator is 
consistent with his longstanding hostility to popular 
movements, not only in the Middle East, but also in post-Soviet 
countries, like Georgia and Ukraine, where mass protests have 
toppled authoritarian governments.
    In the fates of these strong men driven from power, he sees 
his own possible fate. In fact, he has himself publicly 
compared the mass demonstrations that swept across Russia 
earlier this year when tens of thousands of people went out to 
the streets to protest against authoritarianism and corruption; 
most recently just 3 days ago, both to the Arab Spring and to 
the Maidan revolution in Ukraine. These protests in Russia were 
met with a very harsh response, with peaceful demonstrators 
beaten up by riot police and with more than 1,500 people 
arrested on a single day.
    The official foreign policy concept of the Russian 
Federation that was signed by Mr. Putin mentions ``the growing 
threat of international terrorism.'' Yet the Kremlin's approach 
to this issue has been ambivalent at best. For example, unlike 
the United States and the European Union, the Russian 
Government refuses to recognize Hamas and Hezbollah as 
terrorist organizations. This is what Ranking Member Deutch 
referred to in his opening remarks.
    Russian Foreign Minister Sergei Lavrov has met on several 
occasions with Hamas leader Khaled Mashal. In January of this 
year, Mr. Lavrov hosted a meeting in Moscow at the foreign 
ministry for representatives of several Palestinian groups, 
which included Hamas, Palestinian Islamic Jihad, and the 
popular front for the liberation of the Palestine that are also 
designated by the U.S. and the EU as terrorist organizations.
    Asked in a recent interview why the Russian Government 
considers some terrorists to be bad and others good, the 
Russian Ambassador to Israel, Alexander Shein, responded that, 
and I quote, ``We do not consider them''--meaning Hamas and 
Hezbollah--``terrorists at all.'' This comes despite the fact 
that Russian citizens in Israel have been among the victims of 
these groups.
    With so many cultural, historical, emotional, and family 
ties between Russian and Israeli societies, and with fully one-
fifth of Israelis, including members of Israel's Government, 
speaking Russian as their first language, it would seem natural 
that Russia should treat the state of Israel as a close 
partner. Instead, the Kremlin's principal ally in the region, 
alongside Bashar al-Assad, is the Islamic Republic of Iran, 
where Moscow remains the largest supplier of weapons, where it 
is actively pursuing new contracts in atomic energy, and which 
it continues to provide for significant diplomatic support.
    Vladimir Putin's objectives in the Middle East have been 
consistent both with his domestic behavior and with his 
approach to other parts of the world: Support fellow dictators 
and undermine efforts of democratization, what his foreign 
policy concept refers to as ``ideological values imposed from 
outside.''
    Military involvement in Syria has also been used by the 
Kremlin for the purposes of domestic propaganda, both to divert 
attention from economic difficulties at home and to back up the 
claim that Mr. Putin has restored Russia's status as a great 
power, a claim that is hardly consistent with reality. A 
reminder of this came just last month as the leaders of what is 
now known as the G-7 held their annual summit in Sicily, for 
the fourth time now without Russia, which was suspended from 
the group of major world powers because of Mr. Putin's 
violations of international law.
    Thank you very much, once again, for the opportunity to 
testify. I look forward to any questions you may have.
    [The prepared statement of Mr. Kara-Murza follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. We appreciate it. 
Good to see you healthy.
    And now we will begin with you. Thank you.

 STATEMENT OF MS. ANNA BORSHCHEVSKAYA, IRA WEINER FELLOW, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Ms. Borshchevskaya. Chairwoman Ros-Lehtinen, Ranking Member 
Deutch, honorable members, thank you for the opportunity to 
testify today.
    In my written testimony, I have gone into detail about 
Russian President Vladimir Putin's strategic objectives in the 
Middle East and how those work against our own national 
security interests. But for the sake of brevity, let me 
summarize.
    First, Vladimir Putin's intervention in Syria in September 
2015 had taken many by surprise, but it is important to 
remember that Russia's presence in the Middle East is not new. 
It is its absence during Boris Yeltsin's Presidency in the 1990 
that is the deviation from history. Putin sought to bring 
Russia back to the Middle East from the very beginning when he 
officially came to power in May 2000, and he did so in an anti-
Western zero-sum approach. For Putin to win, the United States 
had to lose.
    In the Middle East, and especially in Syria, Putin has 
multiple goals, but fundamentally, Putin's priority is the 
survival of his own regime. He wants to stay in power. And 
survival for him is connected to undermining the West. Thus, 
Putin uses the Middle East to that end. He steps into vacuums 
wherever the West retreats and asserts Russia's influence, 
which sows instability and contributes to terrorism.
    Putin says he wants to work with everyone in the region, 
but his actions show a clear preference for the anti-Sunni and 
anti-U.S. forces. Putin's growing relationship with Iran and 
continued support pursuing President Bashar al-Assad, two major 
forces that contribute to terrorism, are a testament to this.
    Russia's growing alliance with Iran, in particular, 
presents a major challenge to U.S. interests in the region. We 
increasingly talk about a post-ISIS environment, and it is in a 
post-ISIS environment that this issue becomes especially 
important. Russia-Iran military ties continue to grow and, 
frankly, the overall level of closeness between the two 
countries is unprecedented in the grand scope of over 500 years 
of history.
    Together, Moscow and Tehran are in a better position to 
undermine the U.S. in the Middle East than on their own. For 
years, Moscow consistently worked to dilute sanctions against 
Iran and claimed that concerns about Iran's nuclear program 
were overblown. Moscow also, at the very least, looked the 
other way when Russian weapons reached Hezbollah. And as was 
mentioned previously, Hezbollah is not designated as a 
terrorist organization in Russia.
    Kremlin's actions shows that Putin cares more about his own 
interests than international regional security. In Syria, Putin 
protected Bashar al-Assad from the very beginning and in 
multiple ways. Putin says he went into Syria in September 2015 
to fight terrorists, mainly ISIS, so that they don't return to 
Russia. But as was mentioned several times here today, numerous 
reports indicate that he has primarily targeted everyone else.
    Putin wants to put the U.S. in front of a choice: It is 
either ISIS or Assad. And as Putin enables Assad, Assad 
continues an ethnic cleansing in Syria, which increases refugee 
flows into Europe, thus helping Putin weaken and divide the 
West.
    Russia's role in Libya is particularly important to watch. 
Putin has been gaining a foothold there by supporting Libya's 
General Khalifa Haftar. And in the context of U.S. absence, 
Putin could attempt to do in Libya what he has effectively done 
in Syria, step into a vacuum, create a short-term fix, and take 
credit for it and cede long-term instability.
    The line between domestic and foreign policy in Russia is 
often blurred, and it is hard sometimes to understand because 
it is different from the West. It is a point that often gets 
missed. Putin seeks to distract Russia's domestic audience from 
his own failings. His foreign adventures, pointing to the U.S. 
as the enemy, these are all distractions in many ways. This is 
how he legitimizes his regime. Putin fears domestic protests, 
and he believes that the West orchestrates regime change 
throughout the world, be it color revolutions in the post-
Soviet space, the Arab Spring, or domestic protests against 
Putin himself.
    Moscow's overall military moves from Ukraine to Syria 
suggest that Putin is trying to create antiaccess/denial, the 
so-called A2/AD bubbles, to limit our ability to maneuver in 
the region. These are, essentially, ever-growing buffer zones 
that he is trying to create. Thus, access to warm-water ports 
has been especially important to Putin along with political and 
economic influence in the region.
    I made a number of policy recommendations in my testimony, 
but my top few are the following: First, Putin cannot be a 
reliable partner in fighting terrorism. We cannot work 
effectively with someone who perceives us as the enemy and 
seeks to undermine us and who enables forces that contribute to 
terrorism in the region in the first place.
    Second, the United States must actively engage in the 
Middle East, such as increase security cooperation with our 
partners to reassure our allies and counter Kremlin's 
propaganda efforts more effectively. This is the best way to 
limit Putin's influence.
    Lastly, we have to remember that there are no quick and 
easy fixes, but with strategic and moral clarity, the U.S. can 
reclaim its leadership position in the region.
    Thank you.
    [The prepared statement of Ms. Borshchevskaya follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
                              ----------                              

    Mr. Donovan [presiding]. Thank you.
    Our next witness.

   STATEMENT OF MR. BRIAN KATULIS, SENIOR FELLOW, CENTER FOR 
                       AMERICAN PROGRESS

    Mr. Katulis. Great. I would like to thank the acting 
chairman and the ranking member and all members of the 
committee for the invitation. It is great to be with you today.
    My bottom line analysis upfront is that Russia's increased 
engagement and assertiveness in the Middle East since 2015 has 
accelerated three negative trends within the region that affect 
U.S. national security interests.
    One is it has accelerated State fragmentation; two, it has 
actually heightened the terrorist threat posed in the region 
and to the United States; and three, it has reinforced a trend 
toward autocratic and authoritarian rule. It has done this 
primarily through its longstanding cooperation with Iran, but 
its backing most recently of the Assad regime in Syria.
    Another bottom line upfront assessment is that though it is 
still too early to tell in the Trump administration, I believe 
that we are seeing the emergence of a strategic posture of the 
United States in the Middle East that is quite incoherent and 
not clear where the pieces do not add up.
    I would like to use my remarks to talk, first, for a minute 
about the strategic landscape in the Middle East, because I 
think it is very important to stress one key point: That the 
region itself is in the midst of a long and complicated period 
of fluid change, and the drivers of that change largely come 
from within the region. Outside actors like the United States, 
like Russia, have an important sway and influence, but the 
primary drivers of change inside the region come from within 
the actors.
    Some of it is this competition for influence between Saudi 
Arabia and Iran. Some of it are these tensions we have seen 
recently between other major actors like Qatar and other Gulf 
States. And a big part of it is this rise of nonstate actors 
that we have seen over the last 15 to 20 years, including al-
Qaeda and the Islamic State.
    This competition within the region is multidimensional. It 
has a military and security aspect, but it has political and 
economic features that I am happy to talk about. It is 
multipolar, meaning that there is not one single actor or force 
that I see as dominant within the region. So I think this 
complicated landscape is one that is subject to fracturing, 
fragmentation, and every action the United States takes, every 
action outside actors like Russia takes, it makes a major 
impact, and it is quite vulnerable.
    In my written testimony, I outline seven key objectives 
that I see in Russia's behaviors in the Middle East. I would 
like to just highlight a few and then move to my assessment of 
U.S. policy.
    Number one, it is clear to me that Russia and its actions, 
particularly since 2015, have been aimed to safeguard against 
attempts to isolate Russia geopolitically for its destabilizing 
actions in Europe, in Ukraine, in the United States, and other 
parts of the world. Part of the reason I think it got engaged 
was not only to try to undermine U.S. influence in the region, 
but also to, again, arrest the attempts to isolate it through 
various means.
    Secondly, it has tried to maintain a degree of military 
presence at strategic locations across the Middle East and 
North Africa, primarily, we see in eastern Mediterranean and 
Syria.
    And then, lastly, it states that it seeks to contain 
Islamist terrorism and prevent its expansion into Russia and 
its own borders. But, again, if you go back to my bottom line 
assessment, the consequence of its actions have been to 
exacerbate and to worsen that threat.
    In my last minute, I just wanted to briefly talk about what 
I see as very worrisome trends, and I think an important role 
that Congress has to play in asking questions. We have moved 
from a policy in the previous decade under the Bush 
administration of, perhaps, overreach and trying to do so much 
to change these societies to one under President Obama of 
reticence and restraint, to what I think at this stage, 5 
months into a new administration, which is quite incoherent at 
this point. The pieces don't add up.
    Three points I would stress in the emerging strategic 
posture in the Trump administration and why I think it is 
important that you are having this hearing and Congress should 
engage on these issues:
    Number one, we see a proposed unilateral disarmament of the 
tools of U.S. national security power, particularly in 
diplomacy and economic tools. And that is why this bill that 
several of the members talked about that is in the Senate, I 
think is an important tool in the arsenal to shape the actions 
of Russia and Iran in ways that benefit our interests. 
Secondly, we see an overreliance on military tactics in the 
absence of a clear strategy. And thirdly, I also see what I 
term a creeping U.S. military escalation and a silent surge of 
U.S. troops in multiple parts of the Middle East, in Syria and 
Yemen and other places, but all of this is in absence of 
overarching strategy.
    What is the best way to deal with Russia in the Middle 
East? The best and most effective thing is to have a coherent 
U.S. strategy, something that I would submit that we have not 
had for more than a decade and a half. In large part because of 
our own unforced errors, in large part because of this 
complicated landscape I tried to depict in my written testimony 
and in my remarks today. But Congress has an important role in 
helping this new administration find greater coherence and 
develop greater coherence in its engagement strategy.
    Thank you very much.
    [The prepared statement of Mr. Katulis follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
   
                              ----------                              

    Mr. Donovan. Thank you very much.
    I thank all of our witnesses for appearing today and for 
their testimony.
    My colleague, Ann Wagner, has to be at a markup in 
Financial Services, so I am going to yield my time and 
recognize Mrs. Wagner.
    Mrs. Wagner. Well, I thank the chair very, very much for 
his indulgence and generosity there. And I thank us all for 
participating in this important hearing, especially our 
witnesses today.
    It is important that the committee actively tracks Russia's 
military partnerships and military sales in the Middle East and 
in North Africa.
    Mr. Kara-Murza--and I hope I am getting everyone's 
pronunciations correct today--you are, sir, a brave supporter 
of Russia's democratic opposition and shoulder great personal 
risk, sir. I read an interview with you in the National Review 
and was blown away by your insight into Putin and obstacles to 
democracy in Russia. I appreciate your leadership. I associate 
myself with your stubbornness and your willingness to be here 
today.
    I am wondering if you could flush out for us, on the 
record, the difference between Russia's perspective on Ukraine 
and the Baltic States? What about Ukraine poses a threat to 
Putin in a way that the Baltics do not?
    Mr. Kara-Murza. Thank you very much. Make sure the mic is 
on.
    Thank you, Madam Congresswoman, and thank you for your very 
kind words. Far too kind. Again, it is an honor for me to be 
here.
    And it is a very important question that you pose, and 
there is actually, a qualitative and substantive difference, I 
think, between Mr. Putin's perception of what is happening, for 
example, in the Baltic States and what is happening in the 
Ukraine.
    Successful democratic European Baltic States would not 
necessarily be a direct example for Russian society, because we 
are so different in many ways. A successful democratic European 
Ukraine would be an inspiration to so many people in Russia, 
because of our proximity, we have, in many ways, a shared 
history. We have the same faith. We have a very similar 
language, many cultural links. And when Mr. Putin saw those 
images of the Maidan in Ukraine in 2013 and 2014, when he saw 
hundreds of thousands of people standing on the streets of the 
capital as the corrupt authoritarian leader, Mr. Yanukovych, 
was hastily getting in his helicopter and fleeing, that was an 
analogy too close to home for Vladimir Putin. That was not a 
precedent he enjoyed.
    He feared that a success of this experiment, of the 
democratic experiment in Ukraine, would provide an inspiration 
for many people in Russia. And I think the primary motivation 
for Vladimir Putin's aggression against Ukraine for what he has 
been doing to Ukraine since 2014 has been the desire to prevent 
the success of the Maidan in Kiev before it would become a 
model for Maidan in Moscow.
    Mrs. Wagner. Thank you very much. And I concur.
    Ms. Borshchevskaya, you have written extensively on the 
Putin-Erdogan relationship. Do you believe that Erdogan's 
decision to no longer voice support for the ousting of Assad is 
related to Turkey's partnership with Russia in the Syrian war? 
And further to that, how has Russia's historic support for the 
Kurdistan Workers Party, PKK, in Turkey altered how Erdogan 
approaches the Syrian war?
    Ms. Borshchevskaya. Thank you for the question. Yes, I 
believe that is exactly the reason why Erdogan has changed his 
mind. Frankly, I am not sure if Erdogan is realizing how 
unequal the relationship is right now between himself and 
Putin, precisely for the reason that you mentioned, because 
Russia has longstanding, very deep ties to Kurds. The PKK, 
essentially, was created by a communist proxy, and Moscow's 
ties to the Kurds go back over 200 years.
    This is what Erdogan fears the most. And I think he, 
essentially, changed his position on Assad. He said for years 
Assad must go. He no longer says this in exchange for his 
ability to at least have some sort of influence in Syria.
    Mrs. Wagner. In my brief time left, Russian Ambassador to 
Turkey, Andrey Karlov, was fatally shot in December in Turkey. 
And at the time, Russia and Turkey stated that the murder was a 
result of terrorism. And one Russian center said that the 
answer would be to redouble the fight against terrorism in 
Syria.
    Ms. Borshchevskaya, can you explain how Russia has directly 
or indirectly reacted to the murder in the months since then?
    Ms. Borshchevskaya. Well, for one thing--you know, the 
first thing that came out in the Russian Kremlin-controlled 
press that I remember, was talk about how these are--the 
murder, that these are all--it is a plot to divide Erdogan and 
Putin, that there is some kind of conspiracy theory. And, 
therefore, Erdogan and Putin are just going to keep working 
together more closely, that they are not going to let these 
fictitious enemies, these terrorists, keep them apart.
    You know, beyond that, there was a very general statement 
about terrorism, but again, as we have talked before, these are 
not real attempts to fight terrorism.
    Mrs. Wagner. Thank you. And I know my time has lapsed. I 
yield back, and again, appreciate the indulgence of the chair.
    Mr. Donovan. Thank you, Mrs. Wagner.
    The chair now recognizes the gentleman from Florida, Mr. 
Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    And thanks, again, to the witnesses for really excellent 
testimony. We appreciate you being here.
    I would like to start with the point I made in my opening 
remarks, which gets to the fundamental difference in Russia's 
approach to the region, and that is the interview the Russian 
Ambassador to Israel gave just this week where he made very 
clear that Russia does not view ISIS the same way it views 
Hezbollah. And according to translations of the interview he 
said, ``You equate ISIS with Hamas and Hezbollah, but we think 
this is wrong.''
    When pressed by the interviewer with, that is all you can 
say, there are bad terrorists and good terrorists, his response 
was, ``No, we do not consider them to be terrorists at all.''
    So it is no wonder that Russia has had no problem aligning 
itself with Hezbollah in Syria and Iran, the largest state 
sponsor of terrorism.
    Russia's interests in Syria are about making sure Russia 
isn't affected by ISIS, and if it means propping up a brutal 
dictator or empowering a different terrorist organization, one 
that it sees as less of a threat to its own territory, that 
seems to be just fine.
    Apparently, Russia should be reminded that Hezbollah has 
launched attacks in Europe or that Hezbollah has 120,000 
rockets aimed at Israel where more than 1 million Russians 
live. This is precisely the reason that when our President says 
he wants to work with Russia to fight ISIS, we have deep 
concerns.
    I, frankly, see no outcome in which Russia suddenly 
separates itself from the Assad-Iran-Hezbollah alliance. And 
any deal that leaves a permanent Hezbollah or Iranian presence 
in Syria should be unacceptable to the United States. A 
sustained military presence in Syria would pose a serious 
threat to our interests in the region and only serve to further 
ferment Iran's destabilizing behaviors throughout the region.
    So I would ask the panel, what is Russia's relationship 
like with Hezbollah on the battlefield, and to what extent are 
they cooperating and coordinating with Hezbollah, Iran, or 
other Iranian-backed militias?
    Ms. Borshchevskaya.
    Ms. Borshchevskaya. Sure. I can address this. Sorry. There 
have been multiple reports that Hezbollah has been learning 
from the Russian military. They have--and Putin, actually, has 
made it no secret. He repeatedly said that the Syria campaign 
provided direct life training for the Russian military, and 
this was one among many objectives. He said, you know, that 
there is no better training than real-life combat. And, in 
fact, the Russian military already had three such campaigns in 
the last several years: Georgia, Ukraine, and now Syria.
    So with respect to Iran and Hezbollah, you know, if you 
look at what is happening in Syria right now, on the Syria-Iraq 
border, as you know, it was reported in the press that U.S., in 
fact, is getting more involved. There were some clashes with 
pro-Assad forces. What was happening there is Russia was 
providing air cover for Hezbollah operations. So from reports 
that we have seen, there's been a lot of learning, and 
Hezbollah members even talked positively about how much they 
have learned from watching the Russians operate.
    Mr. Deutch. Mr. Katulis?
    Mr. Katulis. If I could underscore a point, Congressman, 
that you stressed. Hezbollah is our adversary. It is an enemy. 
It has threatened, as recently as last week, U.S. troops in 
southern Syria, as Anna just highlighted. There were clashes. 
And I talked about a creeping military escalation and a 
silencer to the U.S. troops. We don't have the large numbers of 
troops that we had in Iraq and Afghanistan, thank heavens, in 
the previous decade, but we do have a garrison in southeastern 
Syria that, just last week, was threatened by Hezbollah.
    So the strategic incoherence that I simply do not 
understand and I think Congress needs to ask tough questions of 
the Trump administration of how are you going to work with 
Russia, which has been in alignment with Iran, which is an 
adversary to Israel? And nobody, I think, has answered that 
question in any clear way, especially while Hezbollahis 
threatening our troops.
    Mr. Deutch. And just if you could be--if you could be very 
direct, the result of a Russian-trained Hezbollah force in a 
post-conflict Syria with Hezbollah remaining in place means 
what to U.S. troops and to our--and to our ally Israel?
    Mr. Katulis. Well, to our ally Israel, when I go to Israel, 
they talk about Iran being their deepest strategic threat, so 
this approach is existential. And if I might add, when I look 
at the Trump administration's budget proposal for 2018 and 
things that it proposes to do in terms of cutting security 
assistance to some of those partners, including in Lebanon, 
that are fighting Hezbollah and its influence, it seems to me 
that the Trump administration has an incoherent formula that is 
going soft on Hezbollah, and it is perplexing.
    Mr. Deutch. Thank you.
    Mr. Chairman, the incoherent formula Mr. Katulis describes 
that is not only going soft on Hezbollah but helping to train 
Hezbollah imperils our own troops and imperils Israel, and the 
administration has to acknowledge as much and the policy has to 
change. That is why this hearing is so important.
    I appreciate the opportunity. And I apologize, I am a 
ranking member on another committee that I have to run to, but 
I thank you for your time, Mr. Chairman.
    Mr. Donovan. The chair now recognizes the gentleman from 
California, Mr. Rohrabacher.
    Mr. Rohrabacher. Before my friend leaves, let me just note 
that perhaps you have forgotten that Assad has had three 
decades of a truce with Israel. And let me add that, during 
that time, we were allied with countries that wanted to destroy 
Israel, our now Saudi new friends. I just wanted to--in your 
last statement--yes, please.
    Mr. Deutch. Would the gentleman yield?
    I mean, if the gentleman--if my friend from California is 
suggesting that somehow it is in the best interest of the 
United States to not only accept but encourage a Syria run by a 
brutal dictator propped up by a Russian Government----
    Mr. Rohrabacher. That is not what my statement was.
    Mr. Deutch [continuing]. Propped up by a Russian Government 
that will simultaneously strengthen Hezbollah and Iran, who is 
an existential threat to Israel----
    Mr. Rohrabacher. That is not my----
    Mr. Deutch [continuing]. I would disagree with that, and 
I----
    Mr. Rohrabacher. Okay. Well, that is the way to dodge my 
point, but you are absolutely wrong in your analysis that 
Assad, over these last 30 years, has been some kind of enemy of 
Israel. The fact is, we have been supporting enemies of Israel 
for the last 30 years. Assad is at a truce, the one country 
where they could have had a truce, and--I have given you your 
chance. Okay. You didn't answer--you didn't answer it.
    Mr. Deutch [continuing]. The point is Assad is a murderous 
thug, though----
    Mr. Rohrabacher. Mr. Chairman, I gave him his chance to 
answer my disagreement. He chose not to.
    The fact is that we have been allied with people who are 
much more warlike than Assad. And Assad, over these last 30 
years, have been the one country in which Christians could come 
and seek refuge. Even from countries in which they were our 
friends, the Christians would come and seek refuge with Assad, 
because we--they, Assad, was not putting up with the 
persecution and destruction of the Christian community. 
Anything--that is what I mean by unrelenting hostility, but you 
can't see and in any way accept that or deal with it.
    We are going to come up with the wrong policies, just like 
our friend--and I respect the open Russia movement. I respect 
the people that are struggling to get rid of the massive 
corruption that you have in that country. And I--unfortunately, 
I don't think you are making much headway right now. And it is 
not just removing Putin. It is removing a lot of other people 
in power, the oligarchs, et cetera.
    But with that said, for you to suggest that the removal of 
Yanukovych in Ukraine was part of a democratic experience or 
experiment, ladies and gentlemen, you had a democratically 
elected government removed by force. And without that 
happening, I believe that Yanukovych would have been removed 
overwhelmingly in the next election. And collusion with Europe 
and the United States, powerful forces in the Ukraine, 
overthrew the Yanukovych regime, not allowing democracy to 
work; it destroyed democracy.
    Mr. Chairman, I happen to be the chairman of the committee 
that has oversight over this part of the world, and I would 
never have a panel of at least some disagreement on the panel. 
And the bottom line is, you are about as close to any 
disagreement on it, and you don't.
    The fact is that we need--if we are going to have peace in 
the world, we have got to make sure we are talking with Russia 
honestly and trying to confront these issues, whether it is 
Yanukovych or whether--you know, look, our people in the Middle 
East, they are not democratic countries. You think the Saudis 
are democratic countries? And the Saudis were involved with 
killing 3,000 Americans on 9/11. What about the Qataris we are 
talking about right now? You think they wouldn't slaughter the 
large populations they have, if they ever rose up against them?
    We have to quit trying to judge Russia on a double standard 
if we want peace in this world. Because we have to reach out to 
them and say, okay. Let's be honest. What is in your interest? 
What is in our interest? I have to believe that peace is in the 
interest of both of our countries, especially when you have got 
radical Islam that is killing a bunch of Russians just like 
they are killing Americans.
    So with that said, I will ask a question and try to get--
but I am disappointed that the panel doesn't have at least one 
witness to try to have a dialogue about these particular 
issues.
    By the way, just for my friend--and I am sorry he left, and 
I would have given him a chance to say this as well--but when 
you complain about any type of this administration's 
relationship or President, you know, Donald Trump's 
relationship with Russia before he was President, I mean, no 
one's--that doesn't sound anywhere near as insidious as the 
tens of millions of dollars that were put into the Clinton 
fund. Look, Clinton has a foundation in which oligarchs put 
millions and millions of dollars and paid her husband huge sums 
of money into his pocket. And what happened very shortly after 
that? Well, they get a contract to have America's uranium. My 
gosh. No one's even mentioning it, as if all the other stuff, 
talking to some--talking to an Ambassador is some sort of a 
secret, insidious thing, which it is not. That is what the 
Ambassador is there for--versus exchanges of millions of 
dollars? No.
    We have got--if we want to have peace--I think free people 
should be for peace. Our major goal should be for peace because 
peace will override and destroy lives and destroy democracy 
every time. And I thank God that Ronald Reagan brought peace 
between Russia and the United States. He eliminated the Soviet 
Union. The Russians pulled back in the greatest peaceful 
removal of force in a large chunk of territory dealing with 
their borders in the history of human kind. And then what did 
we do? We didn't let them in the EU. We isolated them 
economically.
    And I will just say that I played little parts in this. I 
mentioned the thing about trying to make sure that their 
nuclear physicists wouldn't be working with Iran. We forced 
them into the--into this relationship with Iran.
    And I will tell you one other incident for the record, 
because I have been following this stuff, the Russians offered 
to back out of the agreement with the Iranians. I had this 
directly from players in this game, not Russians, but 
Americans. They offered to withdraw their agreement with the 
Iranian nuclear agreement if we would work with them on 
developing the next generation of nuclear power, which is safe 
and you can't melt it down, et cetera. And you know what? We 
turned them down. And we said, go play with the Iranians.
    So a lot of the problems we have now, I think, have been 
based on we have not reached out to try to work with an honest 
discussion of differences with the country in which--yes, I am 
not trying to say that Putin is a democratic leader. He is 
oppressive and he has lied, and he is tied in the oligarchs 
that are crooked and draining the money from the Russian 
people, which should be used for their benefit. So I am sorry. 
I know it sounds like they are saying he is Putin's man. I am 
not Putin's man. But I am the only one who is willing to make 
the arguments on the other side and trying to see that in order 
to create a more peaceful world.
    And so with that said, I am sorry I took up my whole 5 
minutes.
    Ms. Ros-Lehtinen [presiding]. Thank you.
    Mr. Rohrabacher. I would let them refute me, and I will 
shut up.
    Ms. Ros-Lehtinen. Well, thank you. And we will let them do 
that, but let me go to Mr. Cicilline first.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Madame Chair.
    Thank you to our witnesses. I think one of the things that 
we understand is that our military is most effective when it 
works in conjunction with our diplomatic work and, of course, 
with our development professionals.
    And I am just wondering whether or not any of the panelists 
think that it is possible for us to push back against Russian 
aggression and build the kind of competence in American 
leadership that we need through our military expenditures alone 
or should we, as members of this committee, continue to fight 
for robust investments in both foreign assistance and 
development aid that are such important parts of our foreign 
policy. As you might know, the President's budget proposes very 
deep, deep cuts in those areas. Yes? Everyone agrees?
    Mr. Kara-Murza. Thank you very much. And I want to just 
briefly say thank you for your kind words also during the 
introductory remarks.
    I would like, Madame Chairwoman, if you would allow me very 
briefly to respond to what Congressman Rohrabacher said.
    Ms. Ros-Lehtinen. Yes. And I won't take from Mr. 
Cicilline's time.
    Mr. Kara-Murza. Thank you. First of all, it is very 
refreshing to see disagreement and genuine debate in a 
legislative body.
    Mr. Rohrabacher. Right.
    Mr. Kara-Murza. That is something we have long forgotten in 
my country. As you know, as a former speaker of the Russian 
Parliament, Mr. Gryzlov has said, Parliament is not a place for 
discussion. And, unfortunately, that is what it has become 
under Vladimir Putin.
    The last time my country had anything resembling a free and 
fair election was more than 17 years ago, in March 2000. And 
this is not me saying it. This is according to observers from 
the Organization for Security and Co-operation in Europe. So 
when I say again and again that please don't equate Russia with 
the Putin regime, it means very simply that the current regime 
is not a product of Democratic election. It is not a product of 
a free choice of our people.
    And you said, Congressman, one thing which I completely 
agree with. You said, let's not treat Russia with a double 
standard, and I think this is very important.
    Mr. Rohrabacher. Yes.
    Mr. Kara-Murza. We are not worse than you are. We are 
entitled to the same rights and freedoms that you have. Russia 
doesn't exist in a vacuum. Russia is a member of the Council of 
Europe. Russia is a member of the Organization for Security and 
Co-operation in Europe. We have clear international commitments 
with regard to such areas as free elections, freedom of 
assembly, freedom of the press, the rule of law and due 
process. The Putin regime has been violating these commitments 
and these principles for years, and it is not okay, if I could 
say this, for Western politicians, for Western political 
leaders to say, ah, forget it. You know, let them do whatever 
they want to do inside their country. Let's do realpolitik. 
Let's do business as usual with Mr. Putin. Let's deal with him 
as if he is, you know, a normal democratic-elected leader. That 
is not right. That is insulting. Because, you know, we have 
political prisoners in our country who are sitting in jails for 
their political beliefs.
    Three days ago, we had peaceful opposition rallies on the 
streets of Russia, and more than 1,500 people were arrested and 
put to jail, including women, including teenagers. This is not 
okay. We have no freedom of the press in our country on a large 
scale. All the major media, all the major television networks 
are controlled by the government. And as I already mentioned, 
we have no free elections and have not had free elections for 
many years.
    So I think it is very important to remember the values. You 
mentioned President Reagan several times today. And what 
President Reagan is remembered for in our part of the world is 
that he always attached great importance to values. And, yes, 
he engaged with the Soviet leadership on several areas, 
including arms control, but he also, every time he had a 
meeting with Soviet leader, he put on a list on a desk, the 
list of Soviet political prisoners, and he demanded their 
release. It would be nice to see something similar in terms of 
principles from the current generation of Western leaders. 
Thank you.
    Mr. Cicilline. Thank you. This is sort of building off of 
those comments. According to CNN, our President has spoken 
positively of President Putin over 70 times, calling him 
``highly respected within his own country and beyond'' and 
saying he is doing, and I quote, ``a great job.''
    I am wondering if you could share what you think the impact 
of that kind of posture by the American President is with 
respect to our allies in the region and with respect to our 
enemies in the region. What message does that communicate? It 
is sort of mystifying to me, but I am just wondering what are 
the geopolitical implications.
    Mr. Kara-Murza. Thank you very much. And, well, I think 
there is enough talk in this town about Russians meddling in 
your domestic policy, so I don't want to be one more. So I 
don't think it is my place to comment on, you know, the 
administration or any political dynamic in the U.S. But I would 
say this: I think, you know, if you watch Russian state TV, if 
you watch Kremlin propaganda outlets, you will hear that we, 
members of the Russian opposition, go to the West and we ask 
for money, we ask for political support, we ask for regime 
change. Of course, none of that is true. All we ask for are two 
things from Western leaders, including the Government of the 
United States of America, the most important democracy in the 
world. We ask only two things.
    One is honesty, to be open and honest about what is 
happening in Russia. Don't pretend that something is happening 
that is not happening. Don't call things for what they are not. 
Just call things for what they are. Just be honest and open 
about the situation. That is the first thing.
    And the second thing we ask for of Western leaders, 
including the United States, is please be true and be faithful 
to your own principles. Don't enable the export of corruption 
and abuse from the Putin regime to the West. Don't enable this 
behavior by providing havens, as so many Western countries have 
for so long, to those human rights abusers and those crooks and 
those corrupt officials from the Putin regime who steal in 
Russia but prefer to spend in the West and who keep their money 
in Western banks, who send their kids to study in Western 
schools, who buy real estate and properties and mansions and 
yachts in Western countries.
    And the Magnitsky Act, which was passed by this Congress 
almost 5 years ago, which introduced this very concept of those 
people who engage in human rights abuse and corruption should 
not be allowed to enter the U.S. or use the U.S. financial 
system. Boris Nemtsov, who was already mentioned in these 
hearings, he and I were sitting in the House Visitor Gallery on 
the day the Magnitsky law was being passed. And I think every 
one of you present here voted for this law. And he called it, 
Boris Nemtsov called it the most pro-Russian law ever passed in 
a foreign Parliament, because it targets those people who abuse 
the rights of Russian citizens and who steal the money of 
Russian taxpayers. And that is commitment to principle. So this 
is all we would ask for of the U.S. Government or any other 
government in the Western world.
    Mr. Cicilline. Thank you. I have two other questions, and I 
am going to just pose them and you will have as much time as 
you need to answer them, I hope, Madame Chairman.
    The first is how is Russia managing to pay for all of its 
costly interventions around the world, particularly in Syria, 
and to really begin to become even more engaged in the areas 
around the Middle East? Are they perceiving that they are 
getting a good return on their investment? And have the Russian 
people made the connection between a decline in their quality 
of life and Russian efforts in the Middle East? And does that 
either encourage the Russians to more deeply engage or what is 
the kind of long-term implications of that? Because my sense is 
they don't have the resources to do this without misleading the 
Russian people about the benefits of that.
    And then the second thing is, we now know that Russian 
propaganda RT, a very powerful outlet for Russian propaganda, 
has an Arabic channel. And I would like to know a little bit 
about what Russia is investing in this propaganda in the Arab 
world and is it having an impact and what should we be doing 
and thinking about in terms of responding to the powerful 
spread of propaganda by the Russians through RT in the Arab 
world? So those are the two.
    Ms. Borshchevskaya. I want to respond to Congressman 
Rohrabacher. I agree with everything Vladimir said. I also just 
want to add very briefly in terms of President Reagan, you 
mentioned him a lot. President Reagan didn't only talk to the 
Soviet Union, he defeated the Soviets in Afghanistan. For 
example, he understood that military strength was also 
important. You know, and I as a child growing up in the Soviet 
Union, I----
    Mr. Rohrabacher. You know that I fought in Afghanistan 
against Soviet troops. You know that, okay?
    Ms. Borshchevskaya. Sure, but I just wanted to make that 
point.
    Mr. Rohrabacher. I was a special assistant to President 
Reagan.
    Ms. Borshchevskaya. Sure. No, I just want to highlight that 
point.
    Mr. Rohrabacher. All right.
    Ms. Borshchevskaya. And in terms of your earlier questions 
about engagement in the Middle East, the military and so forth, 
so first, one thing we can do is we can increase cooperation 
with our regional allies. And this doesn't require a lot of 
spending. We need to increase, for example, and I mentioned 
this in my testimony, increase port visits to the Eastern 
Mediterranean to enforce the notion with our regions that 
America supports our allies but it is not retreating.
    The military could augment exercises beyond those that we 
already conduct with Morocco, Egypt, and Jordan and so forth. 
This is a small but very important, effective measure that we 
can take. More broadly, in terms of strategic thinking in the 
region, what the air strikes of April 7 have shown to Putin for 
the first time is that the United States will stand by certain 
red lines, that it is not just talk.
    Unfortunately, it seemed that it was just a one-off, and as 
Brian had mentioned, we don't really seem to have a clear 
strategy. But if Putin understands that there is a clear 
strategy and that we will back up our talk with actions, that 
it is not just talk, that is incredibly important to curbing 
his influence in the region.
    In terms of spending, in terms of how is Russia managing to 
do this, I don't have reliable numbers. I am not sure if 
anybody really does, because this is a very opaque system. 
Officially, what Putin had said is that Russia spent something 
around $400 million in March 2016. I suspect the real numbers 
are probably higher. That said, it is still not a lot, if you 
compare it to the Russian military budget. What he has been 
trying to do is do this on the cheap.
    In Syria, for example, he let Iran do most of the heavy 
lifting, and this is why his interventions have worked so far 
for him. How long this is--whether or not it is sustainable, 
that is a different question.
    And lastly, in terms of your question about RT Arabic, yes, 
RT Arabic is active in the region. It fuels conspiracy 
theories, frankly, just as it does in other languages. What we 
should do is not be on the defensive. We are always on the 
defensive. We are always trying to refute stories that RT puts 
out, and one reason for that, and I cited a report in my 
testimony, first impressions tend to be very resilient. And 
because Russian propaganda, Kremlin propaganda is not concerned 
with the truth, they often have a monopoly on first impression 
because they don't need to think about--investigate what really 
happened.
    We need to work with our regional partners, perhaps 
establish outlets so that we cannot just be on the defensive 
but actually be on the offensive on this issue. Thank you.
    Mr. Cicilline. Thank you.
    Mr. Katulis. If I could add, your first question about the 
cuts and the proposed cuts on the State Department, in my 
opening statement, I characterized it as unilateral 
disarmament. And in the type of strategy that Russia has for 
engaging in the region it truly is unilateral disarmament. Just 
the assistance component of it. And, Congressman, you mentioned 
Christians in the Middle East, and it is something that touches 
my heart and we have done a lot of work on at the Center for 
American Progress.
    Today, the fight in Mosul and Iraq, there is a postconflict 
stabilization effort where we are not even in the ball game 
that affects those communities. Some of the oldest Christian 
communities in the world over the last decade and a half have 
been run out of the region. And we know what it is like in 
human history to see when people are killed and murdered simply 
for what they believe in. And by unilaterally disarming, we are 
actually leaving those most persecuted and vulnerable 
populations, even more vulnerable, because others will fill the 
gap. In Iraq, it seems that Iran is coming in and trying to buy 
up property and things like this. And I think it is important 
for us to talk more about it.
    Secondly, on the question of RT, I mean, it is of my view, 
and I mentioned for the last decade and a half, I don't think 
we have had a coherent strategy across the region, and that is 
especially the case in the battle of ideas, that after the 9/11 
attack in our country here we had a lot of talk about how do 
you win that battle of ideas. And the latest episode we see I 
think coming from the Trump administration is his visit to 
Saudi Arabia and this new countering violent extremism center 
in Riyadh, Saudi Arabia, the image of the glowing orb, if you 
remember this.
    This is a place where the United States and Congress needs 
to ask, what is going on there? What is our involvement? Where 
is the imprint of our values to talk about values? Where is the 
imprint of respect for religious minorities like Christians? Is 
that part of your conception of countering violent extremism in 
building this partnership with these countries? And I am all 
for building partnerships, I have written about it, with 
countries like this, but on our terms, not their terms.
    Mr. Cicilline. Thank you. And I thank the chair, and I 
yield.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Donovan is recognized.
    Mr. Donovan. Thank you, Madame Chair. And I am so proud of 
the leader of our committee, our chairwoman, for being able to 
pronounce your names. It has taken me 2 years to say Ros-
Lehtinen, and then she announced she is retiring after I got it 
down.
    So I would just ask all of our panelists the same question. 
A lot of the conversation today has been about the 
administration's policies toward the Middle East, toward 
Russia. Besides restoring the proposed cuts in the budget, what 
do each of you think Congress alone could do to have an impact 
on many of the issues that each of you have brought to our 
attention today?
    Mr. Kara-Murza. Thank you. Congressman, thank you for the 
question. I think my answer would be to stay true to their 
values and just to remember the importance of the values, 
because actually a lot of--we haven't really touched on this 
today, but a lot of the actions that Vladimir Putin takes on 
the international arena and foreign policy is a direct 
continuation of what he does domestically in our own country.
    I mean, if you look at modern Russian history, it has 
certainly been a pattern, a longstanding pattern that domestic 
repression eventually will translate into external aggression. 
Because after all, why should you expect a regime that violates 
the rights of its own people and that disregards its own laws 
to then respect other country's interests or international law? 
There is no reason. And, you know, those people in the 
leaderships of Western democracies for so many years, I must 
say, turned a blind eye to the abuses of democracy, human 
rights, and rule of law by Putin domestically. You know, the 
violations of freedom of the press, political prisoners, the 
rigging of elections and so on and so forth one day woke up to 
the external aggression of his regime in Georgia and the 
Ukraine, the annexation of Crimea, and now what he has been 
doing in the Middle East. These things are connected.
    So I think it is very important to remember the importance 
of the principles and the values and issues such as rule of 
law, human rights, and democracy, both in your approach to 
U.S.-Russian relations and also to wider approach to foreign 
policy. And that is what I would say. Thank you very much for 
the question.
    Mr. Katulis. I have two very specific ideas. One, I think 
it is very important for Congress to consider a new 
authorization of the use of military force because of this 
creeping military escalation, that the U.S. actually has more 
forces nearer to the front lines of very complicated battles, 
and the legal frameworks that we are operating underneath are 
about a decade and a half old. And it is not just a legal 
issue; it is what is our responsibility as a nation to, when we 
are sending people into harm's way, to actually have a coherent 
understanding of the strategy from the administration. And I 
think having that debate over a new authorization can press 
this administration to clarify what it is doing.
    Secondly, there are a number of arms sales that are 
proposed with partners in the region, and I have written before 
in reports like this that we need to use sort of these tools as 
leverage. We have an enormous amount of leverage. And in this 
year alone, I have been to Saudi Arabia, Lebanon, the UAE, 
Egypt, Morocco, a number of countries for my studies, and I 
have talked to most of the top leaders. And we are the 
strategic partner of choice, no matter what Russia has done in 
the last couple of years. We don't use those tools, including 
arms sales and military cooperation, to benefit stability.
    So it is those two things. How do we use the tools in 
addition to the toolkit on the diplomacy and development? How 
do we use sort of the authorization for the use of force to 
press the Trump administration on what its Middle East strategy 
is? Because we could find ourselves in a shooting war with Iran 
directly at a moment's notice this summer or our troops at the 
receiving end of a chemical attack from ISIS. It is not 
inconceivable, but we aren't having that debate.
    And then secondly, the levels of weapons sales that have 
been proposed, how does this fit within a strategic concept 
that brings stability to the region?
    Ms. Borshchevskaya. Yes. So I would just add so I think 
first authorization of use of force is very important. You 
know, one of the things that I highlighted in my testimony, and 
I just want to come back to that issue, Putin is trying--he is 
trying to limit our ability to maneuver physically, militarily 
in the region in the Middle East. He hasn't quite created full 
A2/AD bubbles. We can still operate, but now we have to think 
twice. He wants us to think twice. He doesn't want us to just--
before, we were able to just go in and now we can't do that 
anymore. We have to think how is Putin going to react. For 
example, we use cruise air strikes. The reason why we are using 
them is because, again, we are afraid for our pilots.
    So authorization of military use of force. And, you know, I 
agree with everything that Brian said. And I certainly agree 
very much with the issue of emphasis on values. Holding 
hearings like this, frankly, I think the hearing on Russia and 
the Middle East like this is way overdue. Putin has been 
involved in this region for a long, long time.
    Lastly, I think sanctions, and we have seen this happen 
just this week. Congress is passing sanctions on Iran and 
Russia. So more conversations along those lines are very 
important. This is very concretely what Congress can do.
    Mr. Donovan. Thank you to all of you.
    Thank you, Madame Chair.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Donovan.
    And I will ask questions if that is okay, Mr. Cicilline?
    Mr. Cicilline. Of course.
    Ms. Ros-Lehtinen. Thank you. I have been in and out. I am 
sorry. Mr. Donovan did a very good job of holding down the 
fort.
    Vladimir, you know the Putin regime and you have been a 
target of his repression. You understand the motivating factors 
for his actions. Can you tell us a little bit more about how 
Putin's domestic issues impact his foreign policy agenda? How 
important is it for him to be able to say that he beat the 
United States in Syria, for example? And what is his mindset 
when it comes to deciding when and how to intervene in many 
matters in the Middle East?
    Mr. Kara-Murza. Thank you, Madame Chairman, for this 
question. And as you know, the Putin regime has been described 
on many occasions as a virtual reality regime because it is so 
dependent on the propaganda image, on the television that--you 
know, the image that it creates itself. As you recall, one of 
the first actions of Mr. Putin in office was to shut down or 
take over all independent national television networks so that 
he would control the entire information picture, almost all of 
it.
    And so I think it is sometimes underestimated in Western 
countries how much of what Putin is doing is actually geared 
for that domestic propaganda image. We already discussed this 
hearing, the relationship between his aggression against 
Ukraine and the domestic needs. He was very unhappy about this 
precedent of mass protests toppling a corrupt authoritarian 
government. And he was certainly not very happy or not at all 
happy about the prospect of something like this happening in 
Russia. And, again, he has been open about it. As we mentioned 
earlier during the hearing, he has himself compared the mass 
protests against his own rule in Russia to the one down in 
Ukraine to those color revolutions in post-Soviet countries, to 
the Arab Spring, and so on. So a lot of the aggression against 
Ukraine that he has been engaged in was motivated by domestic 
considerations to prevent the success of the democratic 
European experiment in Ukraine before it would become a model 
and inspiration for the same thing in Russia.
    And as regards to Middle East and his involvement in Syria, 
if you watch Russian state television, which I would advise you 
not to do if you value your nervous system, but we have to, 
unfortunately, and if you watch it, you will see that most of 
it, most of the political talk shows, most of the news programs 
are dominated by the foreign policy agenda, by Putin's foreign 
policy adventurism. Before it was Ukraine, Ukraine, Ukraine and 
now in the last couple years it is all mostly Syria, Syria, 
Syria.
    You are not going hear about economic problems in Russia. 
You are not going to hear about the sanctions that Putin 
himself introduced on the Russian people when he banned 
imports, for example, or food products from the U.S. and 
European Union 3 years ago. You are not going to hear about the 
problems with healthcare or education or the many social 
political and economic problems we have at home. All you are 
going to hear about, you know, are these reports of new 
military strikes, new bases, or new deals to make, you know, to 
extend the lease of Tartus and Khmeimim. You are going to hear 
about--you are going to see those images of Russian troops, 
Russian air space forces halfway around the world, you know, 
carrying out the valiant mission that President Putin has 
ordered them to.
    You see this used for propaganda purposes 100 percent, and 
it is a very important reason in many ways for what Putin is 
doing to divert attention of the Russian public from the many 
problems at home and to back up the fraudulent, in my view, 
image that he has created of, you know, a Russia rising from 
its knees and being a great power again.
    All I say to this is, you know, in the 1990s, which 
according to Putin were a time of humiliation for Russia when 
we had a democratic system of government under President 
Yeltsin, Russia was invited to join the G8, the most 
prestigious world club, the group of leading world powers. 
Under Vladimir Putin we were expelled from the G8, so where is 
humiliation in there?
    Ms. Ros-Lehtinen. Thank you.
    Ms. Borshchevskaya, in case you want to chime in on that. 
Borshchevskaya. There we go.
    Ms. Borshchevskaya. No. I just want to echo what Vladimir 
said, and I always make the point, and this is why I said 
earlier in my remarks the blurred line between domestic and 
foreign policy in Russia. These are distractions and, you know, 
it is unclear how long Putin is going to be able to sustain 
this, but the fact of the matter is, up to date, he has been 
able to do that. And I think we need to recognize that, you 
know, we are in this for the long haul, that this isn't just 
going to disappear in a year or 2, that Putin is here to stay, 
at least in the near future, and we need to have a strategic, 
coherent response.
    Ms. Ros-Lehtinen. Thank you.
    And finally, Mr. Katulis, you state that the leading powers 
in the region are engaged in a complicated struggle for 
influence, for power, and the key actors use a wide range of 
tools to assert their interests. Obviously, this is playing out 
between Saudi Arabia, UAE, Egypt, and Bahrain against Qatar, 
and there are concerns that this will align Qatar more closely 
with Iran. Russia and Iran obviously have a close relationship.
    So do you think that there is a space that Russia will move 
in to take advantage of, and if, so how? How will it align 
itself with this power struggle? How should the U.S. move to 
prevent a potential Iran-Qatar-Russia nexus?
    Mr. Katulis. I think the first thing the United States 
should do is speak with a much clearer and coherent voice than 
it has. And I have met with officials from the Gulf in the past 
week from a number of these countries, and I think it is hard 
for most Americans to understand the complexities of the 
tensions there. It kind of feels like the Hatfields and the 
McCoys in Arabia because there is a history there and it goes 
back, and it is a little tribal. Yes, it touches upon 
perceptions of security threats and terrorism and things like 
this.
    But bottom line, the number one thing I think the United 
States should do is have the senior figures in its 
administration, the Secretary of State, the Secretary of 
Defense, and especially the President of the United States, 
speak with a much more unified voice about this, and I think it 
is in their own self-interest. We have an administration which, 
again, I try to be clinical in my analysis and assessments, and 
I think it is still largely too early to tell what the 
complexion of the Trump administration's posture in the region 
will be. I think they have not sorted out a lot of their own 
internal sort of debates. Unfortunately, we have seen some of 
these internal debates sort of fully exposed on Twitter or in 
different statements or in different gestures.
    So the most important thing to prevent a cohesive alignment 
there--and I don't think it is inevitable in any means, 
especially going back to a point I was making about weapon 
sales. The United States is about to sell billions more to 
Qatar, which is where we have a major air base. This is a point 
of leverage with all of these partners. We are better when our 
partners are unified, and a lot of the messaging and the 
gestures coming from the Trump administration just in the last 
few weeks cuts against the grain of what I think they were 
trying to do in talking about an Arab NATO and other things.
    So a steadier approach, one where we are working together 
and trying to tease out all of these complexities, rather than 
create this unity or present this unity I think would be the 
most important thing.
    Ms. Ros-Lehtinen. Well, thank you so much.
    Thank you to all three of you. What excellent testimony, 
and we appreciate it. We hope to have a follow-up hearing on 
this. And thank you to the audience as well and the members of 
the press for being here.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 3:38 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
                                 [all]
</pre></body></html>
